U.S. Department of the Interior
Office of Inspector General




          SURVEY REPORT


       FEDERAL GRANT PROGRAM
          TRAVEL ACTIVITIES,
      DEPARTMENT OF EDUCATION,
        GOVERNMENT OF GUAM

             REPORT NO. 99-I-255
               FEBRUARY 1999
                                                                        N-IN-GUA-004-97-C


              United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                                    Washington, DC 20240
                                                                       FEB 2 5 1999


                                 SURVEY REPORT
Ms. Gloria Nelson
Chairperson
Interim Board of Education
Post Office Box DE
Hagatna, Guam 96932

Subject: Survey Report on Federal Grant Program Travel Activities, Department of
         Education, Government of Guam (No. 99-I-2551

Dear Ms. Nelson:

This report presents the results of our review of the Department of Education’s Federal grant
program travel activities. The objective of our review was to determine whether the
Department of Education complied with Federal and local laws and regulations and grant
agreements applicable to travel expenditures charged to Federal grants.

BACKGROUND

The original (1950) version of the Organic Act of Guam (Title 48, Section 142 1 g(b), of the
U.S. Code Annotated) stated, “The Governor [of Guam] shall provide an adequate public
educational system of Guam, and to that end shall establish, maintain, and operate public
schools according to the laws of Guam.” On November 19,1993, Guam Public Law 23-42
was enacted to repeal and enact a new version of Title 17, Section 3 10 1, of the Guam Code
Annotated, which established the Department of Education within the Government of Guam.
Section 3 102 of the new version of Title 17 states, “The Department [of Education] shall be
administered through the Territorial Board of Education. . . which shall be the governing and
policy-making body of the Department.” Further, Section 3 102(a) states that the Territorial
Board will hire a Director and Deputy Director of Education.

On February 27, 1998, Guam Public Law 24-142 was enacted to divide the Board of
Education into four elected District Boards ofEducation, each with a District Superintendent.
In addition, a restructured Department of Education, with the Director appointed by the
Governor, was created to provide guidance to and coordinate the activities of the districts and
to “serve as the state educational agency for purposes of Federal statutes, policies, grants,
programs and regulations.” This law also provided for the existing school board to seme on
an interim basis for a 1 -year transition period and for the election, in November 1998, of the
members of the four new District Boards of Education.

During fiscal year 1997, the Department of Education had total revenues of $168.8 million
($152.6 million from local sources and $16.2 million from Federal sources) and total
expenditures of $167.2 million ($150.6 million from local funds and $16.6 million’ from
Federal funds). During the same fiscal year, the Department had 3,793 employees and
administered 36 schools that had a total enrollment of 32,923 students.

On March 30,1993, the Department of Education adopted the Financial Management System
Policies and Procedures Manual, which includes procedures for processing all Departmental
travel transactions. In addition, the Policies and Procedures Manual directs Departmental
personnel to comply with the travel policies included in the Government of Guam’s Travel
and Transportation Manual. However, on March 6,1997, the Director of the Department of
Education issued a directive stating that effective for fiscal year 1997, he (rather than the
Executive Branch’s Bureau of Budget and Management Research) would approve all off-
island travel authorizations.

According to Departmental records, the Department, during fiscal years 1996, 1997, and
1998 (through March 3 l), received appropriations totaling $1.9 million and expended
$685,696 for travel funded by Federal grants, including $37,465 for local mileage. The
travel funds were received from five different Federal agencies for the Department’s 11
separate Federal grant programs, which are controlled through a total of 57 separate accounts
as follows:

                                               Number of                   Number of Grant Accounts
       Federal Agencv                        Federal Promams               With Federallv Funded Travel
Education*                                            5                                 38
Health and Human Services                             2                                 10
Agriculture                                           2                                  7
Labor                                                      1                                 1
Defense**                                              r                                   _J



        *Travel paid from Federal funds under the Department of Education’s Extended Day program was
        not included in these totals because that program will be audited separately.

        **Travel paid from Federal funds under the Department of Education’s contracts with the U.S.
        Department of Defense also was not included in these totals because that program will be audited
        separately. However, we did review travel for the U.S. Department of Defense’s Junior Reserve
        Officer Training Corps program.




‘Expenditures from Federal funds exceeded revenues from Federal sources because the Department had
carryover funds from fiscal year 1996 that were available for use during fiscal year 1997.

                                                       2
During fiscal years 1996, 1997, and 1998 (through March 3 l), the Department issued
20 1 travel authorizations for Federally funded travel and issued 182 travel purchase orders,
totaling $730,750, to 587 travelers and vendors.2

 SCOPE OF SURVEY
The scope of the survey included Federally funded travel (excluding travel funded by the
Department of Education’s Extended Day program and the Department’s contracts with the
U.S. Department of Defense, both of which will be audited separately) incurred for off-island
travel and local mileage reimbursement claims during fiscal years 1996, 1997, and 1998
(through March 3 1). We visited the offices of the Department of Education, the Department
of Administration, and the Bureau of Budget and Management Research to interview
officials and review records pertaining to Federally funded travel activities. In addition, we
interviewed program officials from the U.S. Departments of Agriculture, Education, Labor,
and Health and Human Services to obtain program information.

Our review was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances.

As part of the survey, we evaluated the system of internal controls related to the operational
and financial management of Federally funded travel. Based on our limited review, we
determined that, in general, the Department had adequately managed the processing of travel
authorizations and local mileage reimbursement claims. However, we identified internal
control weaknesses in the areas of clearing outstanding travel advances and processing and
closing travel purchase orders, which are discussed in the Results of Survey section of this
report. Our recommendations, if implemented, should improve the internal controls in these
areas.

PRIOR AUDIT COVERAGE
During the past 5 years, the U.S. General Accounting O&e has not issued any audit reports
on travel costs charged to Federal grants by Guam’s Department of Education. However, the
Office of Inspector General’s November 1993 audit report “Travel Practices, Government
of Guam” (No. 94-I-106) discussed travel management by 19 different Executive,
Legislative, and Judicial entities within the Government of Guam. At the time that the audit
was performed, the Department of Administration processed travel authorizations for the
Department of Education. However, on March 30, 1993, the Department of Education


‘Paragraph 1.10 of the Financial Management System Policies and Procedures Manual section entitled
“Travel Authorization Processing’ provides that, after travel authorizations are approved, the Division of
Supply Management is responsible for issuing travel purchase orders for each approved travel authorization
to control the funding certification and payment process. Each travel purchase order designates one traveler
or vendor (for airline tickets or training) as the responsible party and can include per diem, airfare,
household shipment charges, and other travel costs.

                                                     3
assumed responsibility for processing its own travel authorizations and vouchers and, on
March 6, 1997, assumed responsibility for budgetary control over travel funds. The prior
audit did not include any findings specifically related to the Department of Education’s
processing of travel authorizations and vouchers.

An independent public accounting firm issued single audit reports on the Government of
Guam, including the Department of Education, for fiscal years 1995 and 1996. However, the
reports did not include findings related to the Department’s travel operations. Although the
Department’s single audit for fiscal year 1997 (which began in July 1998) will again be
conducted as part of the Government of Guam’s single audit, the Department will be audited
as an independent component unit instead of a line agency within the Executive Branch.

                                RESULTS OF SURVEY
The Department of Education needed to improve its control over Federally funded travel.
Specifically, we found that the Department did not ensure that (1) travel vouchers were filed
in a timely manner and that travel advances were used for authorized purposes, (2) claims
for Federal reimbursement of grant-related travel expenditures were submitted timely,
(3) documents were retained which identified those travel expenditures submitted for Federal
reimbursement, (4) travel expenditures were appropriately charged to Federal grants, and (5)
competitive procedures were used to obtain airline services. Procedures pertaining to travel
expenditures on Federal grants are contained in the Department’s Financial Management
System Policies and Procedures Manual and the Common Rules for Federal grant
administration issued by the U.S. Office of Management and Budget. How-ever, deficiencies
occurred because Departmental offkials did not provide adequate oversight of its employees
and provide them adequate training. As a result, the Department (1) was owed $4,0553 for
outstanding travel advances, (2) may lose $4,855” in Federal reimbursements, (3) did not
have adequate support for at least $34,054 in claims for Federal reimbursement, (4) incurred
questionable travel costs of $4,915, and (5) had little assurance that it obtained the best prices
for airfares.

Travel Advances

Paragraph 1.2 of the Financial Management System Policies and Procedures Manual section
entitled “Travel Authorization Processing” states, “The traveler must submit the Travel
Voucher form, Travel Itinerary form, and supporting receipts to Accounting within 15 days
of completing travel.” Further, subparagraphs 1.2.10 and 1.2.11 require the Department’s
travel accounting technician to review the file of open travel authorizations for any claims
or travel advances outstanding for more than 15 days, to send Uncleared Travel Advances
Memoranda to the travelers, and to “take necessary action as indicated in the [Government

30utstanding travel advances totaled $7,792. However, we reduced this amount to $4,055 to avoid
duplicate counting of the remaining $3,737, which is included in “Travel Expenses” in this report.

4Unreimbursed travel costs totaled $7,121. However, we reduced this amount to $4,855 to avoid duplicate
counting of the remaining $2,266, which is included in “Travel Expenses” in this report.

                                                   4
of Guam’s] Travel and Transportation Manual.” Section 1712.02 of the Travel and
Transportation Manual states that “advances not fully recovered by deductions from
reimbursement vouchers or voluntary refunds by the traveler within fifteen (15) days
following arrival on Guam [will be recovered] by set off of salary due, retirement credit, or
otherwise, from the person to whom advanced . . . or by such other legal method of recovery
as may be necessary.”

We reviewed the processing of 16 travel purchase orders, totaling $334,484, and identified
3 travel purchase orders, totaling $4,055, that were open for periods of 7 to 30 months longer
than the time by which the travelers were required to file travel vouchers and supporting
documents. This condition occurred because Departmental personnel did not comply with
existing procedures to obtain outstanding travel vouchers from travelers and did not comply
with Departmental procedures in closing purchase orders. As a result, the travelers did not
account for travel advances totaling $4,055, and the Department also did not have the use of
$2,355’ because Federal reimbursement could not be requested until one of the three travel
purchase orders was closed.

The accounting technician assigned to close travel purchase orders stated that although he
had sent only two Uncleared Travel Advances Memoranda to travelers who had outstanding
travel vouchers during the period of January 1997 to March 1998, he usually called travelers
requesting that they file the delinquent vouchers. He also stated that during this period, the
Department, to the best of his knowledge, did not offset or attempt to offset outstanding
amounts against the salaries of travelers who had not filed travel vouchers. Further, the
accounting technician said that he had not been provided training on closing travel purchase
orders or on the effects of not closing travel purchase orders in a timely manner. Also, the
accounting technician stated that his backlog of open travel purchase orders (on
July 24, 1998, we counted 53 open travel purchase orders) existed because of his “other job
responsibilities” and because other staff did not provide information necessary to close out
the travel purchase orders. The accounting supervisor stated that the accounting technician
had not informed her of the problems related to closing travel purchase orders but that if she
had been aware of the problems, she could have assigned someone to assist him. In our
opinion, Departmental officials should have monitored the travel administration process
more closely to ensure compliance with existing policies and procedures.

Claims for Federal Reimbursement

Paragraph 1.2 of the Financial Management System Policies and Procedures Manual section
entitled “Cash Disbursement - Follow Up” states that the Assistant Financial Affairs
Administrator is to “ensure that the Federal Government is billed in a timely manner to
reimburse the government [of Guam] for expenditures related to Federal Programs.” In
addition, Paragraph 2.6 of the Manual section entitled “Travel Authorization Processing”
states that the travel accounting technician is to “prepare a journal voucher to reclassify


50f the three travel purchase orders totaling $4,055, two in the amount of $1,700 each were from local
fimds related to the Junior Reserve Officer Training Corps program and therefore were not eligible for
Federal reimbursement.
                                                  5
cleared advances from the Travel Advances account to the appropriate expenditure account.”
Further, Paragraph 2.9 of that section of the Manual states that, at the end of each month, the
travel accounting technician is to “review the travel advances in the Open Purchase Orders
Report.” The section further states, “If all travel advances and invoices have been recorded
against the Purchase Order, request Supply Management to close the Purchase Order.”
Departmental accounting personnel stated that at the end of each month, they prepared
requests (based on that month’s recorded travel expenditures) for the Department of
Administration to obtain reimbursement from the appropriate Federal grantors.

Of the 16 travel purchase orders reviewed, we found that 6 travel purchase orders were
related to the Junior Reserve Officer Training Corps and were not eligible for Federal
reimbursement. Therefore, we excluded these travel purchase orders from our tests for
Federal reimbursement purposes. Of the remaining 10 travel purchase orders, we identified
3 purchase orders, with travel advances totaling $4,855, for which Departmental personnel
had not prepared or recorded closing journal vouchers for periods of 1 to 7 months after
having received all necessary supporting documents. For example, all documents necessary
to close a travel purchase order for $4,561 were filed by March 6,1998. However, 4 months
later, Departmental personnel had not requested Federal reimbursement for $3,125 of the
$4,56 I (a request for $1,436 appears to have been made). The accounting technician could
not provide us with an explanation as to why he had not prepared and processed the required
closing journal vouchers for two of the travel purchase orders, but he said that for the third
travel purchase order: he had not closed all fiscal year 1998 transactions. As a result,
reimbursement for $4,855 in Federally funded travel had not been requested.

Retention of Records

Subsection REC 3 of the Financial Management System Policies and Procedures Manual
section entitled “Record Keeping, Computer Center Operations, Report Frequency” states,
“TO ensure [the Department of Education] is in accordance with the [U.S. Office of
Management and Budget] Common Rule, Section 42, Retention and access requirements for
records, all financial and programmatic records, supporting documents, statistical records,
and other records of grantees or subgrantees must be maintained for a period of no less than
three (3) years after finalization of the year end audit.” Under the claim process established
with the Department of Administration, the Department of Education prepared and sent
Request for Reimbursement on Federal Grants Expenditures claim forms to the Department
of Administration, which requested the drawdowns of grant funds from the appropriate
Federal agency.

Of the 10 travel purchase orders reviewed for Federal reimbursement purposes, we identified
8 travel purchase orders that had expenditures totaling about $34,054.6 However, because
of missing accounting documents, we could not determine whether the travel expenditures


‘%he Department’s records identified reimbursement claims by program and Federal grants but not by
category of expenditures. Therefore, we could not specifically distinguish travel-related claims from
personnel and other categories of expenditures. In addition, the Department could not locate summary claim
totals for fiscal year 1996 but did provide claim totals for fiscal years 1997 and 1998 (through March 31).

                                                     6
had been forwarded to the Department of Administration for Federal reimbursement. The
accounting technician stated that she routinely discarded (within 3 weeks after preparation)
the listings ofthe specific travel expenditures included on reimbursement claims transmitted
to the Department of Administration for submission to the Federal grantor agencies because
of insufficient filing space to retain the documents and also that she did not believe that it
was important to retain these listings. Therefore, we were unable to confirm the exact
amount of travel expenditures included in the Department of Education’s overall
reimbursement claims, and the Department of Education did not have records to support the
expenditures claimed. We believe that records of the travel expenditures claimed should be
retained for the 3-year period specified in Department of Education and Federal record
retention requirements to support whether the expenditures claimed were allowable.

According to the Department of Education’s comptroller, the problems identified in his
department’s process for accounting for and filing claims for Federal reimbursement
occurred, in part, because of the shortage of qualified accountants. He stated that, as of July
24, 1998, he was the only employee (of 60 employees in the Department’s Business Office)
who had a degree in accounting. We believe that the Department should ensure that its
accounting personnel have the level of formal and on-the-job training required to
satisfactorily perform their accounting duties.

Based on our review, we classified as unsupported $34,054 of the $38,909 (the balance of
$4,855 was questioned in the section of this report “Claims for Federal Reimbursement”)
in travel expenditures apparently claimed for reimbursement during fiscal years 1996, 1997,
and 1998 (through March 3 1).

Travel Expenses

Attachment B, Section 41, of U.S. Office of Management and the Budget Circular A-87,
“Cost Principles for State, Local and Indian Tribal Governments,” states that “travel costs for
officials covered by Section 23 [such as members of councils and school boards], when
specifically related to Federal awards, are allowable with prior approval of a grantor agency.”
In addition, Board Policy No. 363, “Field Trips and Excursions,” requires that the adults
accompanying students on off-island field trips be employees of the Department of
Education. Finally, Title 5, Section 23 104(d), of the Guam Code Annotated states, “If the
employee received an excessive advance allowance, he shall reimburse the Government the
excessive amount .”

We reviewed 16 travel purchase orders, totaling $334,484, for compliance with Federal and
local travel regulations and policies. The 16 travel purchase orders reviewed consisted of 10
purchase orders, totaling $45,000, funded by Federal grants and 6 purchase orders, totaling
$289,484, funded by local funds. We identified unallowable or uncollected travel
expenditures and advances in 3 of the 16 travel purchase orders reviewed as follows:

       _ A member of the interim Board of Education traveled to Virginia to attend an
education conference, and the Department charged the $3,737 cost of the trip to a Federal
grant program. The accounting technician who processed this travel authorization stated

                                              7
that, at the time, she was not aware that the travel costs of Board of Education members
could not be charged to Federal grants without the grantor’s prior approval.

        - The Department paid $1,078 from local funds for travel by a chaperon on a student
field trip who was not an employee of the Department of Education. The accounting
technician said that she did not question the travel because the traveler had been approved
by the requesting division, The division’s approving official stated that he was aware of the
requirement that all travelers should be Department employees but that he approved the
travel because both the individual and her spouse (who was a Department employee) were
selected for the trip by an official who was senior to the approving official.

        _ A chaperon on another student field trip had not returned $100 in local funds
received in advance per diem for a student who decided not to participate. The accounting
supervisor stated that she did not question the use of the funds because the funds were used
for other expenses during the field trip.

In each instance, as of the time of our review, the Department had not taken actions to
recover the funds.

Purchase of Airline Services

The Department of Education did not ensure that airline tickets were acquired in a
competitive manner. Section 3-l 1.3.1 of the Department of Education Procurement
Regulations states, “Insofar as it is practical for small purchases of supplies or services
between $500 and $15,000, no less than three (3) businesses shall be solicited to submit
written quotations or oral quotations that are recorded and placed in the procurement file.”
In addition, Section 36(12)(c)(4)(d) of the Common Rules for the administration of Federal
grants (as issued in accordance with U.S. Office of Management and Budget Circular A-l 02,
“Grants and Cooperative Agreements With State and Local Governments”) states, “If small
purchase procedures are used for procuring services, supplies, or other property that do not
cost more than $100,000, price or rate quotations shall be obtained from an adequate number
of qualified sources.”

During the period of October 1, 1995, to March 3 1, 1998, four Department divisions
purchased airline tickets costing a total of $192,904 without documenting whether more than
one quotation was obtained. However, we could not determine whether this practice resulted
in unnecessary additional airfare costs because the two primary airlines serving Guam did
not retain historical airfare information, which prevented a comparison of actual airfares with
potentially available airfares.

Agencies within the U.S. Government issue competitive contracts for travel services to be
provided to offices in a specified geographical area, and the winning bidder guarantees the
best and lowest rates and provides all travel services needed by the offices. We believe that
the Department of Education could issue a similar contract, which should help ensure that
the most cost effective rates would be obtained for Departmental travelers. Therefore, in our
opinion, the Department should pursue the option of competitively contracting for travel

                                              8
services and, if not, require quotations from the two primary airlines for all Federally funded
air travel to help ensure that it obtains the most economical prices for airline tickets.

Recommendations
We recommend that the Board of Education instruct the Director of the Department of
Education to:

         1. Develop and implement procedures to require that Departmental accounting and
supervisory personnel monitor the filing of travel vouchers to ensure that all travel vouchers
are filed in a timely manner.

        2. Establish time frames for closing travel purchase orders and implement procedures
to require that Departmental supervisory personnel ensure that accounting personnel comply
with the established time frames.

        3. Require that all supporting documents for travel reimbursement claims be retained
for the time periods provided in the Government of Guam’s records retention policies and
applicable Federal grant management regulations.

        4. Provide training to ensure that Departmental accounting personnel responsible for
processing travel transactions and documents related to Federal grants are knowledgeable of
the applicable travel policies and regulations and ensure that accounting and supervisory
personnel are accountable for enforcing the travel policies and regulations.

       5. Advise the applicable Federal agencies of the questioned costs and either resolve
the questioned costs or arrange for their repayment.

        6. Take appropriate action to recover the travel costs of $1,078 related to the
nonemployee chaperon and the $100 in advance per diem related to the student who did not
participate in a planned field trip.

       7. Enter into a competitively awarded contract for all Departmental travel services
or implement procedures to ensure that competitive airfare quotations are obtained and
documented for all Federally funded travel from at least the two primary air carriers.
 Guam Board of Education Response and Office of Inspector General
 Reply

In the January 27, 1999, response (Appendix 3) to the draft report from the Chairperson,
Interim Board of Education, the Board concurred with Recommendations 1,2, 4, 6, and 7
and partially concurred with Recommendation 5. Although the Board did not specifically
refer to Recommendation 3, we considered the Board’s response to Recommendation 2 to
also be applicable to Recommendation 3. Based on the response, we requested additional
information for all of the recommendations (see Appendix 4).

Recommendation 5. Partial concurrence indicated.

         Board of Education Response. The Board stated that the Board member’s travel
“was justified and reimbursable, [because] the individual is a member of the Goals 2000
commission appointed by the Governor.” The Board further stated that the Department of
Education is pursuing reimbursement from the Goals 2000 program but that “[slhould Goals
2000 deem this travel non-reimbursable, the Department will charge all costs associated with
this travel against the Board’s FY [fiscal year] ‘99 budget.”

In the January 8, 1998, preliminary response, included with the January 27 response (page
6 of Appendix 3), the Director of Education further stated that the Interim Board member
“was authorized to travel to Virginia” to attend an education conference and that the
Department requested supporting documentation from the Federal Program Administrator
to show such authorization.

        Office of Inspector General Reply. Office of Management and Budget
Circular A-87, “Cost Principles for State, Local and Indian Tribal Governments,”
Attachment B, Section 4 1, states that “travel costs for officials covered by Section 23 (such
as councils, school boards, etc.), when specifically related to Federal awards, are allowable
with prior approval of a grantor agency.” However, during our review of travel records, we
found no documentation that such prior approval had been granted, nor did the response
contain such documentation. Further, during the audit, the accounting technician who had
processed the travel authorization had contacted, at the auditor’s request, the Federal
Program Administrator for information regarding this issue. However, the information was
not provided to the technician.

The Inspector General Act, Public Law 95-452, Section 5(a)(3), as amended, requires
semiannual reporting to the U.S. Congress on all audit reports issued, the monetary impact
of audit findings (Appendix l), actions taken to implement audit recommendations, and
identification of each significant recommendation on which corrective action has not been
taken.

In view of the above, please provide a response, as required by Public Law 97-357, to this
report by March 26, 1999. The response should be addressed to our Pacific Office,



                                             10
4 15 Chalan San Antonio, Baltej Pavilion - Suite 306, Tamuning, Guam 969 11. The response
should provide the information requested in Appendix 4.

We appreciate the assistance of the management and staff of the Department of Education
in the conduct of our survey.




                                        Eljay B. Bowron
                                        Inspector General

cc: Governor of Guam
    Director, Department of Education
                                                                                   APPENDIX I


                  CLASSIFICATION OF MONETARY AMOUNTS

                                                                       Ouestioned Costs
                                                              Unsupported               cost
                  Finding Area                                   costs              ExceDtions

Travel Advances                                                  %4,055*
Claims for Federal Reimbursement                                  4,855+*
Retention of Records                                             34,054* *
Travel Expenses                                                                      $4.915***

         Totals




*Amount consists of $2,355 of Federal fimds and $1,700 of local funds.

**Amount represents Federal funds.

***Amount consists of $3.737 of Federal funds and $1,178 of local funds.



                                                   12
                                                                                                      APPENDIX 2


          FEDERAL PROGRAM TRAVEL AND QUESTIONED COSTS
               FOR OCTOBER 1,1996, TO MARCH 31,1998

                                                Federally              Total                 Questioned Costs
      Grantor Agency               Total       Reimbursed          Questioned         Unsupported           cost
        and Grant              Travel Costs   Travel Costs*        Travel Costs                         Exceptions

Education:
 Consolidated Grant               $103,035        $103,035                    0                   0                     0

    Grants to States for the
    Education of Children
    With Disabilities              116,814          116,814            $28,076             $28,076                      0

    Infants and Toddlers
    With Disabilities               25,229          25,229               10,748             10,748                     0

    Goals 2000                       8,948            8,948              3,737                    0             $3,737

    Guam Bilingual
    Education                        3,404            3,404                   0                   0                    0

Health and Human
Services:
 Headstart                          30,054          30,054                    0                  0                   0

    HIV/AIDS                         3,156            3,156                   0                  0                   0

Aoriculture:
 State Administrative
 Expense                            36,443          36,443                    0                  0                   0

    Nutrition Education
    and Training Program            14,587          14,587                    0                  0                   0

Labor:
 School-To-Work**                  45,52 I                0              2,440               2,440                   0

Defense:
 Junior Reserve Offtcer
 Training Corps***                298,505         0                      2,878               1.700             1 I78
                                                                                                               -

     Total                       $685.696        $341,670             $47.879             $42.964              s4.915

_     _   .   .   .      .
*We could not determme the exact amount ofFederally reimbursed travel costs because ofdeficiencies in the Department
of Education’s accounting and record keeping for travel transactions.

**As of July 24, 1998. the Government of Guam had not requested that the U.S. Department of Labor reimburse the
Department of Education for these travel costs.

***As noted in the report, travel costs for the Junior Reserve Ofice Training Corps program were paid from local funds
and were not eligible for Federal reimbursement.




                                                         13
                                                                                      APPENDIX 3
                                                                                      Page 1 of 7

                            GUAM BOARD OF EDUCATION
                              DEPARTMENT OF EDUCATION
                                          P. 0. Box DE, AgaM. Gu 96932
                                 Telcph: (67 1) 734dmf3       FAX: (67 1) 7344904
                                                                    Jm~ary 27,1999

                      Mr. Peter J. Scha~vark. Jr.
                      Senior Auditor
                      o&e of the Inspector General
                      North Pacific Region
                      238 Archbishop F.C. Flares Street
                      PDN BulldIng, Suite 807
                      Agsna, Guam 98910
                      sl@#ect:      Response to Fcdcrol Gmnt Progrrun
                      Hafa Adai Mr. Schanmrk;
                      This letter serves as: (1) an addendum to the letter sent by the Director of
                      Education to Mr. EIlJay B. Brown dated January 8. 1999 regarding your audit
                      finding on the travel of the Interim Board of Education member; and (2) a_n
                      ofiicial response to your audit findhqjs and recommendations.


                      &$itofs Findln~.
MII)*r:
Mary A. Cutkrra
Mark K. Mwtba
                      A member of the Interim Board of Education traveled to Virglnla to attend an
Vicet~tt C. Meno      EducaUon conference, and the Department charged the $3.737.00 cost of the
bat M. Wolf, Ed. D.   trip to a Federal grant program. The accounung technlcfan who processed
AprU D. Gucaa         this travel authorlzaUon stated that. at the Ume. she was not aware that the
                      travel caste of Board of Education member could not be charged to Federal
                      grants without the grantor’s prior approval.


                           of I Res.
                      Y5. Advise the applicable Federal agencks of the questIoned costs and either
                      resolve the questioned cost3 or arrange for repayment.
                                 R~CoCortectiW~ .
                      The Board Member’s travel was Jusufied and reimbursable. the IndkfduaI 1s a
                      member of the Goals 2000 commlsslon appointed by the Governor of Guam.
                      Please note that this tndlvidual’s travel was lnitaily charged against Goals
                      2000 and the Department is pursuing reimbursement due It being non-
                      reimbursed. Should Goals 2000 deem this travel non-relmburseable, the
                      Department will charge all costs associated with this travel against the
                      Board’s FY ‘99 budget (Please refer to l/8/99 letter on responses.




                                              Promorer excellence                    Rowdes support
                                                       14
                                                                                         APPENDIX 3
                Rt2Peter Sduwark JT.
                 c.                                                                      Page 2 of 7




                pt-cgrams wCU be obcahed pdor co tmL        wuf wfK enforce ali trawl pottctes and reg~bhs
                (e.g., OMB A-87, local tm.vel pokies, etd

                             rPlpdlpQh[?L.
                The Department pald $I,07 8 from local funds for travel by a chaperon on a
                student field trip who was not an employee of the Department of EGducaUon. The
                accounttng technician said that she did not question the travel because the traveler
                had been approved by the requesttng dlvtston. The dNls!on’s approving offidal
                stated that he was aware of the requirement that all travelers should b e
                Department employees by that he approved the travel because both the fndlvtdual
                and her spouse (who was a DOE employee1 were selected for the trip by an ofkial
                who was senior to the approving 0ffkiaJ.


                #6. Take appropriate acUon to recover ,the travel costs of $1,078 related to the non-
                employee chaperon and the $100 tn advance per diem related to the student who
                did not par&pate In a planned field trip.
                Au&tee Rea~ppst &I& Corr&Ive Acti~.
                The Department concurs with you recommendation and wfll make every effort to
                collect this outstand!ng balance (e.g., holding the Department employee’s payroll
                check, btlllng the chaperon, etc..).
                &d&&a Finding&$.
                A chaperon on another student field trip had not returned $100 In local funds
                r e c e i v e d               i n       a d v a n c e              p e r     diem for a stud
                accounting supervisor stated that she did no quesuon the use of the funds because
                the funds were used for other expenses during the field trip.
                      tor’~conmiend~.

                Y6. Take appropriate action to recover the travel costs of $1.078 related to the non-
                employee chaperon and the $106 In advance per diem related to the student who
                did not participate In a planned held trip.
                      tee R~~JDOZW & Comctin Act&,@_planl.
               The Department of Education/Board of Educaiton concur with your
               recommendations and will make every effort to co&W this outstanding balances
               (e.g.. billing the chaperon. etc..)
               H, RBCO~rxON&
                # 1. Develop and implement procedures to requre that Departmental accounting
                and supervisory personnel monitor the Ullngs of travel vouchers to ensure that all
                travel vouchers are filed I.II a timely manner.
                &,@tct ~onse

Prepare3 students for lifk                      Romotes uxdlence                            Provides sllppa7
                                                     15
                                                                                                  APPENDIX 3
                                                                                                  Page 3 of 7




                T h e D e p a r t m e n t o f Education/Board o f E d u c a t i o n c o n c u r with y o u r
                recommendation and will ensure that procedures are lmplementd and enforced.
                 #2. Establish time frames for closing travel purchase orders and lmplement
                 procedures to require that Departmental supervisory personnel ensure that
                 amunttng personnel comply with established time frames.
                      tee m md Chrrtct.b &tQQ %a,.
                T h e D e p a r t m e n t o f E d u c a t i o n / B o a r d o f E d u c a t i o n c o n c u r with your
                recomrnendatlon and will ensure that claims are retained based on applicable
                guidelines.
                 #4. Provide t.rainIng to ensure the department. accounttng personnel responsible
                 for processing travel transactions and documents related federal grants are
                 knowledgeable of the applicable travel polictes and regulations and ensure that
                 accuuntlng and supervisory personnel are held accountable for enforcing the travel
                 policies and regulations.
                      tee Rcms?.me Md (h=WtiW ACtiQa .

                T h e D e p a r t m e n t o f EducaUon/Board o f E d u c a t i o n c o n c u r wtth y o u r
                recommendation and will ensure that current and new personnel are sufficiently
                trained and monltorti.
                 ~5. Advise the applicable federal agencies of the questioned costs and either
                 resolve the questioned costs or arrange for repayment.




                 #6, Take appropriate action to recover the travel costs of $1,078 related to the non-
                 employee chaperon and the $100 In advancer per diem related to the student who
                 did not partictpate in a planned field trip.




                 #7. Enter into a compeW.ively awarded contract for all department travel services
                 or lmplemenl procedures to ensure that competive airiare qtiotatlons are obtatntxi
                 and documented for all federally funded travel from at least the two primary a.tr
                 carriers.
                      tCCapspQnstmdCggZC~VtAction~, .

                T h e D e p a r t m e n t o f Education/Board o f E d u c a t i o n c o n c u r with y o u r
                recommendation and will ensure that competive travel quotations (i.e.31 will be
                obtained from the various local travel agencies.

                                       Our Educational Community:
F+~MUCS   students for liie                        promOies ac&nce                                   Rovidks support
                                                          16
                                                                               APPENDIX 3
                                                                               Page 4 of 7




               Should you have any questions or comments. please do not hesitate to contact me
               at (671) 734-4902/3.
               Thank you.




                                 Our Educations1 Community:
Reparcs students for   ii/c               Promotes CYcel~ence                   provida snpport


                                              17
                                                                                              APPENDIX 3
                                                                                              Page 5 of 7


                      DEPARTMENTOFEDUCATION
                                fm.ibrnr
                              Aplu.CsDmwU
                              T& (671)                   4 ISAW
                                                Fu: @71) m-a3




                                                    January 8,1988

Mr. Eljay 8. 8owmn
Inspector Goneral
Agana, Guam 86932
Dear Mr. 8owron:

Thk letter is in response to the draft audit repofi pertaining to the expendbe of W&al funds.

Regarding the findings relative to the interim Board of Education travel to Virginia and Washington. D.C.,
the following are conditbns in which the travel was authorized:

1.      The intim Board member was autho&ed to travel lo Virginia 1D attend the NASBE meeting
        given her role es a member of the Guam Goals 2000 Panel and DOE’s ongoing eMI to
        implement the Goals 2000 Comprehensive Educatbn Improvement Plan.

2.      The adminlstratot of the Goals 2000 fundlng, Dr. Nerissa Bretanb4hafer. secured permIc&n
        from the Qoals 2DOO oficfal, Daky Gfeenfleld concerning the use of Goals 2000 funding fur
        bavel. She was informed that to the extent 90% of Guam’s Goals 2000 funds dkectJy supportr
        school initlaUves br implementing the CEIP. 10% of the funding can’be used for adm/nkhtiie
        purposes. Including travel to meetings and conferences pettalnlng to the implementatiin o[the
        Goals 2000 CEIP. Dr. Shafer posed the questiOn via emaJ to h4s. Greenfleld, who h turn
        responded via e-mail. WE Is aWaiting a WMtn stalement from Ms. Greenfield or an autMked
        Goals 2000 official Attached k a memorEvrdum that was sent by Dr, Shafer requesting
        documentation relative to this issue.


3.      Mile the interim Board’s trip was initially scheduled for the duatiorr of the conference in Virginh,
        the trip to Include meeting with Qds 2000 officials and Federal Impact Aid officials. Dr. Shafer
        was scheduled to travel to Washington D.C. to attend the Natlonal Center for Education Srat$&
        (NCES) Winter Forum the last week of January lg98. Dr. Shafets travel was pre-paid by U.S.
        DOE given her role as the liaison to the National Forum Because of a family emergency Dr.
        Shafer had to cancel her trip. The interim &8d member subsectuently a&ended tha Wlnlcr
        Forum and meetings with the Goak 2OOO officials and F&!ral Impact Aii officials on behalf of
        Or. Shafer.

ln shoe given the latitude for ~endlng 10% of Goah 2000 tinding. the interim Board member’s I& as
an ative member af the duam Education Goals 2000 Panel. and the nature of the meetings she
stknded during her lrip to Washlngton D.C. and Virginia, the funding of the tip to Virglnta k alrfhorlzed



                                                           LZL?Z~N.,
                                                           Dfrector of Education                      Q
attachment
                                                                                                              #‘4c.
                                                                                                                   3
                                                                                                          f

                                                                                                          t

                            COMMONWEA1~THNNQW!                                                                &

                                        '9
,a”-‘,.-    ,.   YL   ..“I.-   , I I_                                                        APPENDXX 3


                                        DEPARTMENTOFEDUCATION
                                                           P.O.lbsDL
                                                        A#oor,Guam%952
                                                        TJ: @7l)AUF(n
                                                        r8x:(m)4Tssau




           January 7.1999

           Fax Mcmnrandum

           TO!                  D&y Greenfield
                                 Gods 2000 Coordiaaror, outlying Artas

           From:                Nerissa Bretania-Shak
                                Guam Goals
                                        .    2000 Contact                         1

           Subject:             Request Documentation of Allowable Expenditures                      Q



           Sometime Fall 1998 I sent an e-mail requesting advise on whether travel to conferences
           pertaining to standard setting and mt!CdngS with go& 2000 officials could be fuaded by Goals
           2000 awards, provided ti it fell witbin the 10% admbimative cost. You responded via e-mail
           indicating that ir was allowable, provided that Guam allocated 90% of the mal f&ding fix local
           education agency reform inirintivcs related to the Comprehensive Education Improvement Plan.
           Because we commurricared via e-mail I do not have a copy of your response and am in need for
           wrinesl documentation for audit purposes.

           If at aU poujble, please fax to mc some type of documentaku that suppons the wthoridOA of
           wvel cxpcnditurca to atnd a performance standards meeting and a meeting wirh Goals 2000
           officials irr Washington D.C., January 1998. If you may recall ibe Board of Education
           Chairpuso~ met with you sometime d& ths 1~ week of January. Prior to her meeting with
           you she met with other State Board members in Virginia relative to deveIopmcm ofperfo~ce
           and con-t staudards. Her tip WBS fur&d by Goals 2000, uader 10% atinhismtivc allocation.
       If such documentation is no1 possible because of the ;eime period since we comxm&ated, I
       would apprcciau any type of documentatioQ &at refers IO allowable ewnditures undtr the
       admi&rrative portion.
           Your response to this is appreciated. I am SOW for rhe short notice and inconvenience thi~‘might
           cause, My fax number is (67 1) 477-3407.




                                         COMMONWEALTH NOW!
                                                             19
                                                                                   APPENDIX 3
                                                                                   Page 7 of 7




                            Information Sheet
                    DOE Interscholastic Sports Program
For nearly three decades, the Department of Education has operated and
paid for an extensive interscholastic sports program which includes public
as well as prlvatc schools. An honors program for student athletes, the
program has grown to include activities at leagues in the following areas:
High School                                           Middle School
1. Boys foottil                                       1. Girls volleyball
2. Girls volleyball                                   2. Boys volleyball
3. Boys volleyball                                    3. Girls basketball
4. Boys wrestling                                     4. Buys basketixll
5. Girls soccer                                       5. Track and Field
6. Boys .wr                                           6. Girl socctf
7. Boys basketball                                    7. Boys soaxx
8 Girls basketball                                    8. CheerieAing
9. Boys bask&all
10. Girls Softball
11. Track and Field
12. Cross-Country
13. Golf
14. Tennis
15. Cheerleading
16. Porn Porn
17. RGI-C
18. Band
19. Strength training

   Of the 33 schools in the interscholasGc sports program operated by DOE, 22 are private
   or non-DOE schools. Only 11 arc DOE .fchools.
   DOE pays the cost of offYciating of all games. whether it involves private xhtwls or
   public schools.
   DOE pays for trophies presented to public and plvrrle schools.
   DOE pays for salaries or stipends for DOE schools’ axches.
   Private schools pay for the salaries or stipends of their own coaches.
   DOE pays for other costs such as the .salary of [he person who coordinates the
   program, o-ting costs of the office, upkeep and maintenance of DOE facilities and
   utilities of DOE gyms and fields.
   Until recently, DOE        for busing for all interscholastic games (public or private).
   That cust is currently absorbed by Public Works.
                 1998-99 Budget,       Two Maln Areas of Expenses

 --__                         Hinh School             Middle School           Totals
lYY&W
Coaching Stipends             $273,906.00             %191,450.00             $465356.00
199%99 OfMating               $121.99o.oU             s 78,868.M              $200,858.00

                                                                              $666,214.00



                                             20
                                                                  APPENDIX 4


     STATUS OF SURVEY REPORT RECOMMENDATIONS


Finding/Recommendation
       Reference           status                  Action Required

  1,2,3,4,5,6, and 7     Management Provide the target date and title of the
                         concurs;    offkial responsible for taking corrective
                         additional  action for each recommendation.
                         information
                         needed.




                                    21
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                              Internet/E-Mail Address

                                      www.oig.doi.gov



                      Within the Continental United States

U.S. Department of the Interior                         Our 24-hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800424-508 1 or
Mail Stop 5341                                          (202) 208-5300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Region

U.S. Department of the Interior                         (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                         (67 1) 647-6060
Offke of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
Toll Free Numbers:
 l-800-424-5081
 TDD l-800-354-0996

FE/Commercial Numbers:
 (202) 208-5300
 TDD (202) 208-2420

 HOTLINE
1849 C Street, N.W.
Mail Stop 5341
Washington, D.C. 20240
